No.

MICHAEL KENNETH YOUNG, a/k/a Mizzle,

Petitioner,
Vv.

UNITED STATES OF AMERICA,
Respondent.

AFFIDAVIT

On this 9th day of August, 2021, I, Anthony G. Lantagne, hereby certify that
this Petition for Writ of Certiorari was sent this same day via USPS Certified Mail
to the Supreme Court of the United States. I further certify that I have served by
First Class mail and email this same date the required copies to the counsel of
record listed below:

Solicitor General of the United States
Room 5616

Department of Justice

950 Pennsylvania Avenue NW
Washington, DC 20530-0001
supremectbriefs@usdoj.gov

I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 9th day of August, 2021.

 

agne Leg: Fnting, Inc.
801 E. Main Street, Suite 100

Richmond, Virginia 23219
(804) 644-0477

COMMONWEALTH OF VIRGINIA _)
CITY OF RICHMOND ) to-wit:

      

 
